*

No. 20In The

Supre

Supreme Court of tf)t QUntteb States?
JAMES BALDWIN,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
PETITION FOR A WRIT OF CERTIORARI

JAMES BALDWIN, HP2983
(Prcrse Litigant)
C/O SCI Albion
10745 Route 18
Albion, PA 16475
(814) 756 -5778

°^C 14 2020
OFFICE O

££eclerk

1

QUESTIONS PRESENTED
1. Whether Appellant was denied rights under the
Sixth and Fourteenth Amendments of the United
States Constitution to effective trial counsel and
whether denial of such effective counsel and
discriminatory trial and appellate court decisions
deprived him of nearly every right under the 4th, 5th,
6th, and 14th Amendments of the United States
Constitution with their concept of a "separate but
equal" system of criminal procedure for persons
suffering mental disability?
2. Whether Appellant was denied the fundamental
constitutional right to testify in violation of the 5th,
6th, and 14th Amendments of the United States
Constitution, and the state and federal appeals court's
disposition of Appellant's grievances violated 5th and
14th Amendment equal protection by discriminately
applying and creating laws that only prohibit those
with mental disabilities from exercising these rights?

11

LIST OF PARTIES
The following were parties to the proceedings in the
U.S. Court of Appeals for the Third Circuit:
1. James Baldwin, the petitioner on review.
2. Commonwealth of Pennsylvania, the respondent
on review.

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED.............

1

PARTIES TO THE PROCEEDINGS

11

TABLE OF CONTENTS

m

TABLE OF AUTHORITIES

,iv

OPINIONS BELOW,

1

JURISDICTION

2

STATUTE INVOLVED

2

STATEMENT

4

REASONS FOR GRANTING THE PETITION

12

CONCLUSION

30

IV

TABLE OF AUTHORITIES
Page

Cases
Strickland v. Washington,
466 U.S. 668 (1984).....

27

Fla. v. Nixon,
543 U.S. 175 (2004)

26

Buck v. Davis,
137 S. Ct. 759 (2017)

17

Brown v. Board of Education of Topeka, Shawnee City,
Kansas, etal.,
347 U.S. 483 (1954)
14
Com. v. Legg,
551 Pa. 437, 711 A2d 430 (1998)

20

Com. v. Carbone,
375 Pa. Superior Ct. 261, 544 A.2d 462 (1988)

20

Com. v. Weaver,
500 Pa. 439, 457 A.2d 505 (1983)

26

Com v. MacBride,
402 Pa. Super. 624, 587 A. 2d 797 (1991)

15

Com v. Weiss,
622 Pa. 663, 81 A. 3d 767 (Pa. 2013)

29

Rules and Statutes
P.A. Rule of Criminal Procedure 569(A)(2)

14, 34

In The

Supreme Court of tfje ?Hntteb States;
No. 20James Baldwin,
Petitioner,
v.
Commonwealth of Pennsylvania
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
PETITION FOR A WRIT OF CERTIORARI
James Baldwin respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Third Circuit.
OPINIONS BELOW
The Third Circuit’s decision is unpublished but
reported at Baldwin v. Superintendent Albion SCI, et
al., No. 20*1667, U.S. Court of Appeals for the Third
Circuit. Judgment entered Sep. 14, 2020.
The District Court’s order is unpublished but reported
at Baldwin v. Superintendent, SCI Albion, No. CV 17540, U. S. District Court for the Western District of
Pennsylvania. Judgment entered Mar. 6, 2020.

2

JURISDICTION
The Third Circuit entered judgment on September
14, 2020. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves a state criminal defendant's
constitutional rights under the Fourth, Fifth, Sixth,
and Fourteenth Amendments.
The Fourth Amendment provides in part:
“The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures...”
The Sixth Amendment provides in relevant part:
“In all criminal prosecutions, the accused shall enjoy
the right to ... have the assistance of counsel for his
defense.”
The Fourteenth Amendment provides in relevant
part:
"... nor shall any State ... deny to any person within
its jurisdiction the equal protection of the laws.”
This case also involves the application of 28 U.S.C. §
2253(c). which states:
(l) Unless a circuit justice or judge issues a certificate
of appealability, an appeal may not be taken to the
court of appeals from -

3

(A) the final order in a habeas corpus proceeding in
which the detention complained of arises out of
process issued by a State court;
(2) A certificate of appealability may issue under
paragraph (l) only if the applicant has made a
_substantial showing_of_the denial of a constitutional
right.

4

STATEMENT
A. Factual History
The Pennsylvania Superior Court, in a Memorandum,
dated June 14, 2016, set forth the factual history of
the underlying crimes as follows:
On January 25, 2006, Baldwin and his roommate,
Brendan Martin, had an altercation when Baldwin
served Martin with a notice to vacate the premises
due to Martin's drug use. Martin attempted to hit
Petitioner with a hammer, and Baldwin attacked
Martin with a large knife, fatally stabbing him in the
neck and heart. Baldwin dismembered the body,
placed the parts in five plastic bags, and buried the
remains in a shallow, makeshift grave. The next day,
a road department employee discovered the grave
and alerted police, who found the plastic bags
containing the victim's remains, along with a
backpack containing a piece of paper with Baldwin's

5

name on it. Police interviewed Baldwin, who
admitted he attacked the victim and killed him.
Baldwin was charged with homicide and abuse of a
corpse, and proceeded to a jury trial, at which he
asserted an insanity defense.
Com, v. Baldwin. 1240 WDA 2015. 2016 WL 3268835.
at *1 (Pa. Super. June 14. 2016); ECF No. 12-15 at 19
-20 (quoting Com, v, Baldwin. 58 A.3d 754 756 (Pa.
2012)),

B. Procedural History
1. State Court
The Superior Court recounted the procedural history
of the conviction and direct appeal as follows:
Baldwin's trial counsel conceded the basic facts of the
case in his opening statement, and focused his case
on the insanity defense. The Commonwealth
presented fact witnesses who testified to the

6

circumstances of the crime and a recording of
Baldwin's confession to investigators. Baldwin
presented the testimony of a single witness, Laszlo
Betras.-M.D..._a psychiatrist-who treated Baldwin
while he was involuntarily committed after his
arrest. Dr. Petras opined that Baldwin was incapable
of distinguishing right from wrong when he
committed the homicide. In rebuttal, the
Commonwealth called Bruce Wright, M.D., a forensic
psychiatrist who interviewed Baldwin prior to trial
and opined that Baldwin was not legally insane at
the time he committed the homicide.
After deliberation, the jury returned a verdict of
guilty on the charges of first-degree murder and
abuse of a corpse. The trial court sentenced Baldwin
to fife in prison without possibility of parole plus a
consecutive term of one to two years’ imprisonment.

7

The trial court subsequently denied Baldwin's post­
sentence motions.
On appeal, the Superior Court affirmed the judgment
of sentence in a published decision. The Supreme
Court of Pennsylvania granted Baldwin's petition for
allowance of appeal, and affirmed the Superior
Court's decision in an opinion dated December 28,
2012. Baldwin filed a timely pro se PCRA petition.
Counsel was appointed to represent Baldwin, and
counsel filed an amended PCRA petition. The PCRA
court denied the amended petition on August 3, 2015,
and Baldwin filed a timely appeal.
On appeal, Baldwin raised ten separate allegations of
trial counsel ineffectiveness. On June 14, 2016, the
Superior Court affirmed the denial of relief by the
PCRA trial court.
Petitioner then filed a Petition for Allowance of
Appeal in the Pennsylvania Supreme Court, raising

8

the same claims as he had raised in the Superior
Court. The Pennsylvania Supreme Court denied the
Petition for Allowance of Appeal on December 6,
2016.'
2. Federal Court
On April 26, 2017, Petitioner filed a counseled
Petition, seeking to attack his convictions for firstdegree murder and abuse of a corpse. In the Petition,
the following grounds for relief were asserted.

GROUND ONE: Denial of the right to effective
assistance of trial counsel in violation of the Sixth
Amendment.
GROUND TWO: Conviction was obtained and
sentence imposed in violation of the right to testify in
violation of the 5th, 6th and 14th Amendments.

9

In the Petition, Petitioner listed the following
supporting facts as to Ground One.
Trial counsel's performance was deficient (lATC) for
(l) making inflammatory and prejudicial remarks
and arguments for no reason and which conferred no
benefit on the client; (2) fading to investigate and
prepare the insanity defense[;] (3) failing to present a
claim of self'defense even though the Medical
Examiner (ME) testified that the first blows with the
survival knife hit the jugular vein and one of them
was the fatal wound, which was inflicted during the
course of a struggle instigated by the decedent to stop
the decedent from killing the defendant/petitioner; (4)
failing to insist on compliance with Rule 569(A)(2); (5)
failing to make an argument that the record should
be reopened once the defendant/petitioner decided he
wanted to testify; (6) failing to object to the
prosecution's closing argument stating that the

10

attempt to to [sic] conceal the crime was evidence of
malice! (7) failing to object to the prosecution's
characterization of the crime as an “execution” where
the evidence showed that the first blow with the knife
was lethal! (8) fading to call character witnesses; (9)
failing to cross-examine a witness to show that the
decedent was taller than the defendant/petitioner.
Id. at 5.
Petitioner also fisted the following supporting facts as
to Ground Two.
Petitioner could not make up his mind whether he
wanted to testify or not. The Court asked him
whether he wanted to testify or not. The defense
attorney intervened and twisted Petitioner [sic] arm
so Petitioner decided not to testify. The very next day,
Petitioner counsel told the Court that Petitioner
wanted to testify. The judge denied the request for no
good reason and without making a record for

11

appellate review. There was no reason not to allow
the Petitioner to testify. Nevertheless, the Court
refused on application of mechanistic rules. If
Petitioner had testified, he would have been able to
explain to the jury that the first knife wound was to
Martin's neck and it was the lethal blow, as
confirmed by the Medical Examiner's testimony. He
would have been able to clarify that the first blow
was in self-defense and there was no possible avenue
of retreat. The later blows were non-lethal wounds.
The lethal wound to the jugular vein was inflicted in
self-defense, but the later wounds and the abuse of
the corpse were symptomatic of panic at the outcome
of the fight.
Petitioner also filed a “Memorandum of Law
Supporting Petition for Habeas Corpus Under 28
U.S.C. 2254” [sic]. ECF No. 2. Respondents filed an
Answer, with attached copies of much of the state

12

court record, denying that Petitioner was entitled to
any relief. ECF No. 12. Respondents also caused the
original state court record to be transmitted to this
Court. Petitioner then filed a “Response to State's
Answer Opposing Petition for Habeas Corpus” (the
“Traverse”). The Petition for Habeas Corpus was
denied on March 6th, 2020. Petitioner then filed a
Certificate of Appealability, which was denied on
August 13, 2020, and a Petition for Rehearing that
was denied on September 14, 2020.
REASONS FOR GRANTING THE PETITION
This case is of national importance because it involves
the rights of all Americans suffering from disabilities,
and specifically those with mental illnesses. The
courts’ decisions violated the Fifth and Fourteenth
Amendment of the United States Constitution's "equal
protection of law" clauses because they specifically

13

target people with genetic conditions or injuries that
cause certain conditions and allow them to be vilified
and deprived of their rights. They further infringe
upon the Fourth and Sixth Amendments of the United
States Constitution as the decisions say that such a
person can be deprived of the right to present a
defense, call and cross-examine witnesses, and take
the stand and testify.
The manner in which the district attorney and the
Superior Court opined on. the inflammatory use of
bigoted stereotypes and various slurs and epithets for
the

mentally

disabled

reveals

the

strong

discriminatory undercurrent of the proceedings. They
said that the characters were "outside the realm of
legal insanity but..." or that the stereotypes "merely
helped paint a picture of the criminally insane for the
jury...”

14

However, if these arguments are even halfheartedly
analyzed, they clearly try to be politically correct while
skirting the issue that although the comments are
clearly discriminatory, the bigotry at issue is not one
yet in vogue in our society, and therefore the judges
and prosecutors involved want to address the issue as
politicians rather than the administrators of justice
that the constitution require them to be. The same
occurred with the administration who fought to keep
segregation in place by using euphemisms like
"separate but equal" (Brown v. Board of Education).
The courts were to review the issues for unnecessary
conduct of counsel that prejudiced the accused. There
is voluminous case law that reverses convictions where
the

prosecutor called the

defendant

a

"nut",

"executioner", "Clint Eastwood", etc. The question is
always whether a fair trial was denied. For example,
"But to characterize defendant as a 'nut' suggests more

15

than reckless behavior because it insinuates that
defendant is a mindless and dangerous individual who
had no reason whatsoever for his conduct. Clearly, this
inference is belied by the record which shows a
landowner motivated by the rather unremarkable
desire to protect his property” (Maebride at 402 Pa.
633, 587 A. 2d 797), and, "The intendiment is clear-the prosecution sought to portray defendant as a
present and continual menace to society insofar as
reckless conduct might become, or is, perhaps, the
norm. The cumulative effect of this line of argument
produced a highly prejudicial atmosphere at the close
of trial. The remarks served no legitimate purpose and
can be seen as merely a plea to inflame the passions
and prejudices of the jury. ..As such, defendant has
been denied his right to a fair trial." (Maebride at 402
Pa. 634, 587 A.2d 797).

16

Petitoner’s counsel's comments were worse than those
made in other cases that were reversed, but the courts
refused to acknowledge that this insanity defense,
which labeled the accused as mentally ill and
compared him to serial killers and the most violent
and reviled individuals imaginable and offered no
mitigating cross-examination, witnesses, or character
testimony to establish what type of person he was and
what actually occurred that night, was completely
inappropriate,

prejudicial,

and

equated

to

ineffectiveness of Petitioner’s counsel. The courts fear
the political implications of ruling in favor of someone
who was painted as a monster, even though the
underlying issue is that he was wrongfully so
characterized. This is another reason that only this
court, which is not restricted by term limits and

17

therefore political bias, is needed to resolve this issue
of national interest.
Allowing Petitioner’s counsel to characterize him and
all those who suffer from mental illness in this way is
similar to allowing someone to be stigmatized as “more
dangerous” because of their race, as in Buck v. Davis.
(137 S. Ct. 759 [2017]), in which the defendant's
attorney introduced evidence that suggested the
defendant would be more likely to commit violent acts
in the future because he was black. Chief Justice
Roberts' ruling rejected the District Court's argument
that the discussion of race at trial was de minimis and
therefore not prejudicial, and he wrote that “when a
jury hears expert testimony that expressly makes a
defendant’s race directly pertinent on the question of
life or death, the impact of that evidence cannot be
measured simply by how much air time it received at

18

trial or how many pages it occupies in the record. Some
toxins can be deadly in small doses.”
The same can be said for any form of bigotry, and to
say that it could only be based on skin color and not
physical and mental oddities or deformities that one is
born with or develops is simply untrue. Failure to
grant certiorari for this case will assure the
continuation of this form of bigotry within all latitudes
and longitudes of the Third Circuit, and possibly the
nation.
The Petitioner presented evidence on his state post­
conviction motion that he did not want to concede guilt
by presenting an insanity defense. The state was
forced to concede this was accurate, but attributed his
desire to present a claim of self-defense as a "cynical
attempt to escape responsibility" (see the state's PCRA
brief to the Superior Court, pages 29*32).

19

Moreover, based on the Commonwealth's stipulations
that the medical examiner’s report was entirely
consistent with Petitioner's recorded statement in
early proceedings and the fact that there were no fatal
wounds to the victim’s chest, it's debatable whether a
chargeable homicide even occurred. Certainly, the fact
that the accused was attacked in his own home with a
weapon with his child present and that the victim had
a PFA against him for months prior attacking his
previous housemates seems to make it pretty obvious
that a defense based on the physical evidence and
explaining mitigating homicide laws could only have
helped and not diminished his chances. To think that
because the body was disposed of or because Petitioner
had a mental illness his only hope was a defense based
on bigotry and movie stereotypes is nonsensical
“reasoning” to justify the obvious fact that counsel had
no reasonable basis to forego these strong defensive

20

arguments. It is also inconsistent with other court
decisions that do not involve mental health issues.
These state court decisions involve Com v. Legg, where
the state courts have decided that one is entitled to all
applicable alternative defenses, and Com v. Carbone,
where the state courts decided that where the
defendant claimed self-defense and was convicted of
homicide, evidence that the victim had performed a
similar attack was enough to require a new trial. In
this case the victim had performed a prior attack eerily
similar to what Petitioner had described in his
statement,

but

appellate

courts

denied relief,

ostensibly because of the autopsy report, statement,
and mental health options.
Obviously, in Carbone the jury found the autopsy
report and the defendant's statement against the
defendant, yet the testimony of a prior, similar attack

21

was enough to grant a new trial. If laws had been
applied equally, this situation would have equated to
the same prejudice and required the same new trial.
The only reason it did not was the discriminatory
treatment that relied on the mental disability excuse.
Based on these cases, the fact that the accused was not
granted jury instructions or a defense based on
negating or mitigating the homicide charges violates
equal protection. The reason for saying he was not
entitled to such a defense was based on the fact that
he had a mental disability and such a defense would
be “better.” A "normal" person, i.e., someone who had
not been diagnosed as being or was not opined to be
mentally ill, would clearly have been entitled to such a
defense under the same circumstances, as the
"normal" defendants in the above state cases were.
This denial of equal rights is an infringement that is
both constitutional and structural in dimension.

22

Trial counsel agreed in opening that the prosecution’s
evidence was true, the prosecutor's case and findings
of fact also stuck with the recorded statement, and the
prosecutor further agreed before the statement that
the

medical examiner's findings were entirely

consistent with Petitioner's recorded statement. Based
on this statement and excluding discriminatory
excuses to deny Petitioner a chance at defense on
account of his mental disability, there was no reason
not to present instructions, evidence, and arguments
for self-defense, defense of a dwelling, or imperfect
self-defense (voluntary manslaughter). Even if the
commonwealth stipulation that the statement was
"entirely consistent" is to be ignored, a proper
challenging of the evidence could have turned the case
around, and if the medical examiner would have
admitted there was no time for the passions of being
attacked in one’s own home to cool down, the order of

23

the

wounds

indicated

self-defense.

(Although

Petitioner admits that faulting parties for not
disputing or producing evidence for a fact that is
stipulated

would

result

in

chaos

and

much

unnecessary clutter in the legal system, and since
other cases rely on stipulations as facts, the disposition
of this case’s stipulations also violate equal protection.)
The

situation

is

that

trial

counsel

illegally

commandeered the defense to focus on the mind,
stereotypes,

and slurs with disregard for the

homicide/self-defense laws and physical evidence, then
the state appellate courts did not address the issue, so
Habeas counsel, who appeared to cut corners by only
reading the opinion and not the briefs, missed the
main issue because of laziness.
Meanwhile, Petitioner has been in prison for over
fifteen years without being permitted to present a

24

meaningful defense on the accusations. It seems he's
being forced to remain there, without having
presented a defense of his choosing and having his side
of the story told, not because of anything he did (he
asserted these rights to trial counsel and on appeal),
but because other people refused to perform their
duties.
There should be a remedy to this situation and
currently Petitioner has no right to appeal Habeas
counsel's ineffectiveness for failing to be cognizant of
and address the obvious, clear-cut structural error of
trial counsel's ineffectiveness, which would have been
given de novo review and granted Petitioner a new
trial. Petitioner asks that the United States Supreme
Court create a remedy for this situation and attests
that lack of such a remedy is unconstitutional, as the
constitution states that there should always be a
remedy for such legal wrongs and provides for other

25

rights not enumerated in it. At minimum, Petitioner
asks that it refer the case back to the Third Circuit
with instructions to grant Petitioner a hearing to
reinstate his appellate rights and appoint counsel on
the issue.
PCRA counsel brought up the issue that trial counsel
was ineffective for disobeying Petitioner's orders to
research a defense that he was not guilty of the murder
charges by presenting a defense of insanity and
diminished capacity that conceded guilt and did not
challenge

the

physical

evidence,

make

legal

arguments for self-defense or defense of one's dwelling,
or attempt to reduce the homicide charge.
The

Commonwealth,

when

confronted

with

overwhelming evidence of this, agreed that Petitioner
did not wish to present an insanity defense, their only
argument being that, "The Commonwealth submits

26

Appellant's desire to present a claim of self-defense
was due not to a legally valid defense strategy but to a
cynical

desire

to

escape

responsibility"

(Commonwealth's PCRA brief to Superior Court?
pages 29-32).
Under both well-established state and federal law that
conceding criminal liability, entering a plea, or
deciding the objectives of the defense are solely and
completely at the accused's discretion, not counsel's,
and that infringements upon those discretions must be
treated as structural errors, they do not require the
proving of prejudice or that the error was harmless,
only that the error occurred. See Florida v. Nixon and
Commonwealth v. Weaver (Pa. 1983), which states
that counsel would be ineffective for presenting a
defense of insanity and diminished capacity even if it
were the only viable option. In this case the
Commonwealth admitted the error had occurred, but

27

;

for some reason the Superior Court failed to respond
to or even acknowledge the existence of this issue in
their brief, despite the fact that it was the most
meritorious and critical issue.
Federal Habeas counsel should have brought up the
issue and pointed out that state post-conviction
counsel was probably ineffective for not citing the
appropriate laws and addressing it as a structural
error and researching more evidence of it, like the
prosecutor’s file. The issue would have been reviewed
de novo by the federal courts because the Superior
Court failed to address it on the merits, and the case
would have been overturned on this structural error.
Habeas counsel inexplicably chose instead to pursue
trial counsel's structural choices, which are "virtually
unchallengeable" (see Strickland v. Washington).

29

when such an error of ineffectiveness of Habeas
counsel is discovered after the Habeas appeal is
decided.
(To present a defense of insanity or diminished
capacity, counsel would not only need the accused's
permission to concede general criminal liability and
guilt to murder (Com v. Weiss), but permission to
present his confidential medical records under state
and federal laws as well as permission for him to be
interrogated by a state witness under PA.R.C.P. 569,
which may also require a Miranda warning and waiver
of counsel rights. Counsel had none of this required
permission.)

30

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

0Z-0\- ~L0~b\

